Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

             Sutvey of HMOS
                        OFFICE OF INSPECTOR               GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,

is to protect the integrity of the Department   of Health and Human Services programs

as well as the health and welfare of beneficiaries served by them. This statutory

mission is carried out through a nationwide program of audits, investigations,

inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary

of program and management        problems and recommends legislative, regulatory, and

operational   approaches to correct them.





                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several          components of the

Office of Inspector General.     It conducts short-term management        and program

evaluations (called inspections) that focus on issues of concern to       the Department,    the

Congress, and the public. The inspection reports provide findings          and

recommendations     on the efficiency, vulnerability, and effectiveness     of departmental

programs.


The OEI’S Kansas City Regional Office prepared this report under the direction             of

James H. Wolf, Regional Inspector General.   Principal OEI staff included:


KANSAS CITY REGION                                  HEADQUARTERS

Jennifer Collins, Project Leader                    Stuart Wright, Program  Specialist

Linda Paddock, Program Inspection                   Barbara Tedesco, Mathematical

 Assistant                                           Statistician

Hugh Owens, Program Analyst                         Brian Ritchie, Program Analyst


DALLAS REGION

Judith Tyler, Program    Analyst


To obtain a copy of this report,    call the Kansas City Regional   Office at (816)426-3697,

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

             Survey of HMOS
              EXECUTIVE                           SUMMARY


PURPOSE

To evaluate the effectiveness of Health Maintenance  Organizations’     (HMOS)
processing of Medicare beneficiary appeals and grievances.

BACKGROUND

Beneficiaries mayjoinarisk     HMO through the Medicare program.        Fora
predetermined    monthly amount, the HMO provides Medicare covered medically
necessary services. Thegoals     ofthis coverage are to provide coordinated medical
care, offer comprehensive   benefits, and contain costs by using the most cost-efficient
methods of treatment and preventing unnecessary care. As a protection for
beneficiaries, the Social Security Act requires Medicare HMOS to have two separate
and distinct processes, an appeal and a grievance process, to handle beneficiary
complaints.

In order to protect beneficiaries from inappropriate   denials of services or payment,
the Act requires that Medicare HMOS establish an appeal process to handle these
types of complaints.  If an enrollee disagrees with the HMO decision to deny services
or payment, the enrollee has 60 days to file a request for reconsideration.    If the
HMO’s decision is against the beneficiary in whole or in part, the HMO is required to
automatically send the case to the Network Design Group within 60 days for an
independent   Federal review.

All other complaints such as those relating to quality of care are processed under a
separate internal grievance procedure.     Under this procedure, there are no specific
time frames or preordained    levels of review established by law. However, HMOS are
responsible for timely transmission, an investigation, decision, and notification of the
results.

To determine how HMOS were implementing these processes, we surveyed 132
Medicare risk-based HMOS that had at least 450 enrollees in April 1995. We also
obtained and analyzed marketing/enrollment materials and operating procedures from
these HMOS.

FINDINGS

HMOS z%cowectly categorized appl      and grievance   iwues.
Fifty percent of the HMOS responding to our sumey categorized appealable issues as
grievances, while 36 percent categorized grievance issues as appeals, and 10 percent
reported using incorrect processes for cases involving both appealable and grievable
issues. The distinction between appeals and grievances is important to beneficiaries


                                              i
because appeal cases (denials of services or payment) are subject to independent
Federal review for appropriatenessof    the HMO decision while grievances are only
subjectto internal HMO reviews.

HMOS’ mar4@ing@ud7ment znaterids and operating procedures that we rm”ewed contaiiz
incomzt or incomplete informationon appeal and grievance rights.

Sixty-six percent of the HMOS distribute materials to beneficiaries and 69 percent of

HMOS use operating procedures that contain either incorrect or incomplete

information regarding beneficia~ appeal and grievance rights. Some examples include

no information on beneficiary rights, incorrectly combined appeal and grievance

processes, and inaccurate definitions or no distinction between appeals and grievances.


HMO.Ydo not maintain statistical kfonnation neixkd for the ongoing evahuztion of
appeal and ~“evance pmctices.

Twenty-three    HMOS (18 percent) could not produce the statistical information
requested for this inspection relating to numbers of appeal and grievance cases. This
poses significant problems considering that such statistical information is needed by
the Health Care Financing Administration     (HCFA), beneficiaries, and others as a
basis for evaluating HMO performance.

Some HMO staff report they do not have a HCFA HMO/CM~ Manual - othtm report
need for tiprovernents in the Manual

Eight HMOS (six percent) report that staff responsible for processing appeals and
grievances do not have the HMO/CMP Manual, the manual created by Office of
Managed Care for HMOS to use as guidelines in these processes.       Others report a
need for improvement    in the guidelines for appeals and grievances (10 percent),
additional services (23 percent), and emergency/urgent   care (7 percent).

RECOMMENDATIONS

HCFA’S Office of Managed Care is making substantial efforts to improve the HMO
appeal and grievance processes.       It has recently created a work group - Managed Care
Appeals and Grievance Initiative - organized to make program improvements             in these
functions.    Currently, they are also working with HMOS to develop national guidelines
for marketing materials, improve informational        publications, research data reporting
needs, and have obtained funds to evaluate problems in the area of appeals and
grievances.    While HCFAS efforts should favorably impact these processes, we believe
there is still room for improvement.




       1 Competitive Medieal Plan


                                               11
We recommend       that HCFA

  �   ensure that HMOS correctly distinguishand process appah            and gn”evamxx

      HCFA can accomplish this during their annual visits to HMOS. However, we
      suggest that HCFA conduct case reviews as well as examine the operating
      procedures to determine that appeals and grievances are processed correctly.

  �    work with HMOS to establkh standimdizedappeal and grievance kmguage
      requirements in marketinglenrolbnent muterid and operating procediires.

         - In marketing materials, provide up front information to beneficiaries             on their
           rights under the appeal and grievance processes and

         - In enrollment materials, more thoroughly educate beneficiaries about their
           specific rights under the appeal and grievance processes, including

                --a detailed overview of the types of services, lack of services, or
                  situations which may be appealed or grieved.

                --when and under what circumstances          further   levels of appeal   are
                  permitted.

                --clarification   that only appeals   and not grievances,    are subject to
                  independent      Federal review.

                --the difference between the definitions of emergency           and urgent      care at
                  the time medical services are being sought.


  �� require HMOS to repit Medicare contract spe+c            data on appeal and grievance
      cases. At a minimum, include:

         - number of appeal and grievance cases (including formal and informal
           grievances);
         - number of cases resolved internally and externally, and outcomes of cases;
         - issues involved in cases; and
         - time it takes to resolve the cases (upper and lower limits, median/mean).

AGENCY         COMMENTS

We solicited and received comments on our draft report from HCFA. They agreed
with the conclusion of our reports that improvements   are needed and indicated that
they are working to implement a number of our recommendations.       We are pleased
that HCFA agrees that improvements      are needed in the appeal and grievance
processes, and we recognize that changes are in the process of being made through


                                                  111
the Medicare Appeals and Grievance          Initiative (MAGI).    However, because HCFA’S
response does not specifically address      the recommendations     contained in our reports,
we are unsure whether the problems         identified in our report will be fully addressed
through this initiative. As a result, it   will be important for HCFA to include in their
response to the final report an action      plan that specifically addresses each
recommendation.

The full text of HCFA’S comments      is included     as an appendix   to this report.




                                                 iv
                             TABLE                    OF CONTENTS


                                                                                                                         PAGE


EXECUTIVE               SUMMARY


RELATED             REPORTS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


INTRODUCTION                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..2


FINDINGS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    �   Incorrectly      Categorized       Appeal      and Grievance          Issues     . . . . . . . . . . . . . . . . . . . . 5


    �   Marketing/EnrollmentMaterials                    and Operating         Procedures        . . . . . . . . . . . . . . . . 6


    � Statistical      Information        Not Maintained           . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    � Improvement            in HMO/CMP            Manual        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


RECOMMENDATIONS                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


APPENDICES


A       Most Common            Grievable/Appealable             Issues Reported            . . . . . . . . . . . . . . . . . A-1


B: Procedural            and Marketing/Enrollment                Information         . . . . . . . . . . . . . . . . . . . . B-1


CHCFAResponse                       . . . .. . .. . .. .. . .. . . . . . . . . . . . . . . . . .. . . . . . . . . . . .       c-1

       RELATED             REPORTS





This is one of a series of four reports relating to
Medicare risk HMO appeal and grievance processes.
The four reports are:


Medicare HMO Appeal and Grievance      Processes:
Overview, (OEI-07-94-O0280)

Medicare HMO Appeal and Grievance Processes:
Beneficiaries’ Understanding, (OEI-07-94-00281)

Medicare HMO Appeal and Grievance      Processes:
Survey of HMOS, (OEI-07-94-00282)

Medicare HMO Appeal and Grievance      Processes:
Review of Cases, (OEI-07-94-00283)




                           1

                           INTRODUCTION


PURPOSE

To evaluate the effectiveness of Health Maintenance  Organizations’    (HMOS)
processing of Medicare beneficiary appeals and grievances.

BACKGROUND

Lq@ation

Sections 1833 and 1876 of the Social Security Act specify the requirements      that HMOS

must meet in order to enter into a contract with the Health Care Financing

Administration   (HCFA) to furnish Medicare covered services to beneficiaries.       The

goals of HMO coverage are to provide access to medical care while containing costs

by using the most cost-efficient methods of treatment and preventing unnecessary care.

In addition, HMOS can reduce the medical management          complexities experienced by

elderly patients with multiple chronic conditions, the paperwork burden of a

“fee for service” system, and financial barriers to obtaining preventive and medically

necessary health care.


Unlike traditional “fee for service,” HMOS are designed to coordinate care through a

primary care provider, offer comprehensive    benefits, and reduce or contain the costs

of medical treatment.    They operate under a fixed annual budget, based on the

prepaid premiums.     Except for fees of a few dollars for each doctor’s visit or

prescription,  the premium is to cover all of a patient’s medical needs which include

everything from checkups to open-heart surgery.


Risk and Cost Plans

There are three types of Medicare HMO plans included in the Act. Generally, the
differences involve the method used by HCFA to reimburse the HMO for providing
services and delivering medical services to beneficiaries.  The three types of contracts
are risk-based, cost-based, and Health Care Prepayment Plan (or HCPP) HMOS. The
latter two types are paid on a reasonable cost basis, wherein any differences in actual
costs and interim payments are reconciled and adjusted with HCFA at the end of the
year. Risk-based are reimbursed on a prepaid cavitation basis with no retrospective
adjustment.    While cost-based and HCPP HMOS give beneficiaries a choice of
physicians that they see, a risk-based plan requires enrollees to be “locked’ into only
its contracted physicians unless emergency or urgent care is needed.

As of March 1, 1996, there were 197 risk-based HMO plans, 27 cost-based plans, and
54 HCPPS nationwide, which accounted for almost 4 million Medicare HMO enrollees,
or 10 percent of the total Medicare population. While Medicare enrollment in
managed care has increased 67 percent since 1993, HCFA reports that enrollment in
risk-based plans has grown 105 percent.




                                            2

Appeal & Grikvance I%nxsses�

One of the most effective ways HMOS contain costs is by using family practitioners     or
internists as “gatekeepers” to control a patient’s access to services. The patient
chooses one doctor as a primary care physician; from then on that doctor serves as
first arbiter for any treatment.  The primary care physician provides medical
examinations    and treatments, and serves as a “gatekeeper” to specialty care, except in
emergency and urgent care situations.

Because the payment mechanism of HMOS provides a strong incentive to manage
utilization of enrollee medical services (including the institution of a physician
“gatekeeper” and use of medical practice guidelines), the Act requires that HMOS
establish an appeal process to handle disputes Medicare enrollees have involving a
denial of or payment for services they believe should be covered by the HMO. Other
kinds of complaints such as quality of care received are handled under a grievance
procedure.    Prior to May 1995, only risk and cost-based plans were required to have
these processes in place. HCPPS now must also comply with these requirements.

HCFA directives require HMOS to inform beneficiaries of their appeal/grievance
rights at enrollment, in member handbooks, and annually through a newsletter or
other communication.

Appeals Process - According to 42 CFR, Sections 417.600-638, an appeal is any
dispute involving a denial of services or payment for services made by the HMO.
Federal regulations and the HMO/CMP Manual require a five-step process and time
limits for each step. HMOS must make an initial determination        upon receiving an
enrollee’s request for sewices or payment for services within established time frames
(24 days if the case is complete and no later than 60 days if development      is needed).
Each plan is required to make a decision on information they currently have within
this time frame. If the decision is to deny services or payment, the enrollee has 60
days from the date of the initial determination  to file a request for reconsideration
(appeal) in writing unless “good cause” can be shown by the beneficiary for the delay.
The HMO then has 60 days to make a reconsideration         decision.

If the HMO’s reconsideration     decision is against the beneficiary in whole or in part,
the HMO is required to automatically forward the case to HCFA for an independent
review to determine if the decision is appropriate.     Due to the increasing numbers of
appeal cases, HCFA contracted with Network Design Group (NDG) in January of
1989 to fulfill this function. The number of appeals reviewed by NDG has varied in
the last 3 years from a high in 1993 of 3,806, to 2,945 in 1994, and 3,691 in 1995.

Beneficiaries whose cases are not resolved fully in their favor at the NDG level can
request a hearing before an Administrative     Law Judge (ALJ) if the disputed amount is
at least $100. After this level, any party (including the HMO) may request a review by
the Department   of Appeals Board if there is dissatisfaction with the ALJ’s decision or
dismissal. The final recourse in the appeals process is a Federal court review if the
Board denies the party’s request for review, and the amount in controversy is $1,000
or more.



                                             3

Grievance Process - Grievances are any complaints about a Medicare enrollee’s
experience with the health plan and/or its providers, excluding determinations
involving payment for services or denial of services (which are subject to the appeals
process).  Examples of grievable issues include quality of care, physician behavior,
involuntary disenrollment concerns, and waiting times for services.

Guidance for processing grievances is found in 42 CFR, Sections 417.600 and 417.606,
and in Section 2411 of the HMO/CMP Manual. The guidelines do not provide for
time frames or specify levels of review, but call for “timely” transmission, an
investigation, decision, and notification of the results. While appeal cases that are not
resolved fully in favor of the beneficiaries are subject to independent    HCFA, ALJ,
Appeals Board, and Federal court review, beneficiary grievances are only subject to
internal levels of review within the HMO.

The Office of Managed Care (OMC) within HCFA is responsible for policy and
oversight of HMOS and ensuring there is compliance with the appeal and grievance
regulations. To assist plans in these processes, OMC has created the appeal and
grievance sections in the HMO/CMP Manual.


METHODOI-XIGY

In this inspection, we surveyed and collected procedures and marketing/enrollment
materials from 132 risk-based HMOS, each with at least 450 Medicare enrollees as of
April 1995. The survey instrument was tested in three HMOS to ensure
understandability   and comprehension.   Our universe of HMOS came from HCFA’S
“Monthly Report of Medicare Prepaid Health Plans.” We did not include cost-based
and HCPPS in the sample as the majority of Medicare beneficiaries are enrolled in
risk-based HMOS. We received survey responses from all 132 risk-based HMOS and
compiled this data into frequency distributions.  We also conducted a content analysis
of all materials received from the HMOS comparing them to Federal regulations and
the HMO/CMP Manual, and whether they provide a reasonable approach for
processing beneficiaries’ complaints.

This report is based on our review of self-reported   information   and materials   received
from the HMOS.

We conducted our review in accordance with the Qualify Standard        for Iinpections
issued by the President’s Council on Integrity and Efficiency.




                                             4�
                                         FINDINGS


HMOS 1NC0RRECTL%                  CATEGORIZED            APPEAL         AND GRIEVANCE             ISSUES

 �    Fifiy percent of the HMOS categorized appealable iwues as grievances.

      The incorrect processing of denials of services or payment for services as

      grievable issues has important implications.   Because grievable issues are only

      subject to HMOS’ internal review, beneficiaries are being denied due process as

      established by 42 CFR 417.622 for appeal cases, and the right to an

      independent   Federal review of an HMO’s negative determination.      Further,

      beneficiaries may suffer out-of-pocket expenses and potential health related

      problems from inappropriate    denials.


      To determine how HMOS categorize complaints, we asked the plans in two

      separate survey questions to identify from a list of options which complaints are

      considered appealable and which are grievable. The number of errors in

      categorizing appeal and grievance issues is shown in Table 1. The table

      illustrates the amount of confusion HMOS had in categorizing the issues. In

      completing their surveys, some HMOS responded that certain issues were

      considered as both appeals and grievances.
                                                    Table 1
                 HMOsl LNCORIUXII.Y CATEGORIZING APPEALS & GRIEVANCES

                                                  HMOS did not consider        HMOS considered these
     Appealable Issues                            these issues as AppeAabl#       as Grievabl~
                                                                              iSSUtS


     Emergency versus urgent care                          18 (14%)                    X3(25%)




                                                  HMOS considered these        HMOS did not mnsider
     Grievable Issues                             issues asAppealable         these issues as Grievable
     Dissatisfaction with rnedkal care received            11 (8%)                      7 (5%)
     Beneficiary complaints not taken                         6 (5%)                    10 (8%)
     seriously


     Waiting times for services                               5 (4%9)                   6 (5%)
     1 Some HMOS considered the issue as both an appeal and grievance.
     2 Fifty percent or 66 HMOS were in error in one or more area when asked which issues they
       consider appealable.
     3 Thirty-six percent or 47 HMOS were in error in one or more area when asked which issues they
       consider grievable.
A further analysis of the responses is provided in Appendix A (page A-1) which
presents information on themost conzrnon grievance issues reported byHMOs.       As
noted at the bottom of the Appendix, some HMOS reported that their most common
issues received and resolved through the grievance process were actually appealable
issues.

  �    lldy-six   pement of the HMOS categotied grievance iwues as appeak.

       Although grievable issues can involve serious allegations of quality of care or
       mistreatment  of beneficiaries, current regulations only require HMOS to
       process them internally.    They are not subject to an independent, Federal
       review. Nevertheless, treating grievance cases as appeals adds unnecessary
       costs, HMO staff time to prepare, and can consume NDG’s time if the case
       reaches that level (NDG is responsible only for processing beneficiary appeal
       cases). Refer to Table 1 for details illustrating HMO’s confusion in
       categorizing appeal and grievance issues.

       For further details on this issue, see the lower portion of Appendix A
       (page A-2). One HMO reported the most common issue received and resolved
       through the appeals process was actually a grievable issue.

  �    Some HMOS incowectly process cases with both appealable and gnkvable iwues.

       The HMO/CMp        Manual Section 2400.1 requires that HMOS process
       complaints that contain both appeal and grievance issues separately and
       simultaneously  rather than through one process or the other. In our survey,
       thirteen (10 percent) of 132 plans reported they do not process these issues
       separately and simultaneously.   Three of these plans indicated they handle both
       appeal and grievance issues through the grievance process.

HMOS’ MARKETING/ENROLLMENT      MATERIALS AND OPERATING
PROCEDURES   THAT WE REVIEWED    CONTAIN INCORRECT  OR
INCOMPLETE  INFORMATION    ON APPEAL AND GRIEVANCE   RIGHT’S

The HMO/CMP         Manual Section 2402 requires HMOS to inform all enrollees of the
appeal and grievance procedures and to provide a written description at the time of
enrollment as part of the membership materials.        It requires them to clearly
distinguish between appeal and grievance issues in all written explanations.       For
appeals, HMOS are to describe all steps of the process, from the initial determination
by the health plan to the judicial review rights after exhausting administrative     appeal
rights. It is to include time limits, amount in controversy requirements,     and
procedures for filing appeals. The grievance process explanation must include how to
file, time limits for filing, and time limits for each step in the process.

As part of this inspection, we requested that HMOS send us their marketing and
enrollment materials distributed to Medicare beneficiaries. Our analysis was
specifically based on materials received from HMOS.


                                             6�
We found that 66 percent of the HMOS distribute materials to beneficiaries that
contain either incorrect or incomplete information on their appeal/grievance rights in
HMOS. Further, we found that 69 percent of HMOS use operating procedures for
processing appeals and grievances that are deficient. Examples are HMOS that have

  �    no information     on beneficiary     rights.

  c	   inaccurate definitions of appeal and grievance            issues, unclear   distinctions
       between them, or no information included.

  �	   inaccurate definitions of emergency and urgent care, unclear                distinctions
       between them, or no information related to these issues.

  �    incorrect    or no money amounts        included   within the steps of the appeal          process.

  �    incorrect    procedures      that combine   appeals   and grievances   processes.

  �    incomplete     explanation     of the grievance    process.

  �    erroneous     extra steps and time added to the appeals          process.

  �	   inaccurate or incomplete         time frames included     in explanations     of steps in the
       appeals process.

Appendix B identifies the frequency in which we noted errors by category. These
errors could impact the level of understanding  beneficiaries have of these processes.
Incomplete or incorrect information in materials distributed to them may cause
confusion.  Further, inaccurate operating procedures may result in HMOS incorrectly
processing appeals and grievances.



HMOS DO NOT MAINTAIN STATISTICAL INFORMATION NEEDED FOR
THE ONGOING EVALUATION  OF APPEAL AND GRIEVANCE  PRACITCES

llventy-three HMOS could not produce the statktical information related to appeah and�
grievances.�

Although all HMOS reported that they retain statistics on appeals and grievances, and
review data for trends and processing times, Table 2 reveals that almost one-fifth of
the HMOS were not able to produce statistical information on appeals and grievances.

These figures are potentially understated; they do not include those HMOS where
incomplete statistical information was submitted with the sumey nor those that
responded with “N/A’ when the plan meant it does not retain data in the areas we
requested.
                                                       TABLE 2

                        HIKOSCOULD NOT PROVIDE STATISTICAL INFORMATION


Reasons for Lack of Information                                                    Number of HMOS


Could not separate statistical information by contract on appeals

and grievances when the HMO had multiple Medicare risk contracts.                  14 (11%)


Could not separate Medicare from commercial enrollees to provide

information on appeals and grievances.                                             3 (2%)


Could not produce data for a specified time because they either did

not retain it during the time requested or never had retained this information.    3 (2%)


Could not separate appeal cases from grievance cases in the database.              2 (1.5%)


Could not include all grievance cases filed by enrollees when the HMO processed

“formal” and “informal” grievances separately.                                     1 (1%)


Total Number of HMOS                                                               23 (17.5%)


HMOS reprted the folkmikg muin reasons for beikg unable to provhie this reformation:�

   �     they do not retain data separately when an HMO has multiple Medicare
         contracts and all appeals and grievances were processed at headquarters;
   �     they retain combined data of commercial and Medicare complaints; and
   �     they do not have the staff or computer systems to collect or retain the data.

This results in difficulty in data collection and analysis of the data. The information
HMOS do report may be skewed or unreliable as not all HMOS retain the same data,
if it is retained at all. For example, one large HMO in our sample initially reported it
had 345 grievances.      However, upon further investigation, it actually had over 37,000
grievances.     The problem was that the HMO initially reported only the grievances that
they considered as “formal” and not the “informal” grievances.      Thus, it appeared the
HMO had very few grievances when in fact it had thousands.

Lack of consistent terminology for complaints, and the collection, retention, and
reporting of data makes it extremely difficult to truly compare HMOS. This is highly
problematic given that such statistical information is needed by HCFA, beneficiaries,
and others as a basis for evaluating HMO performance.




                                                           8�
While HMOS are not currently required to report this information to HCFA, OMC
officials and a number of reports cite the importance and appropriateness of
collecting, retaining, and reporting data.2

SOME HMO STAFF REPORT THEY DO NOT HAVE A HCFA HMO/CMP
MANUAL - OTHERS REPORT NEED FOR IMPROVEMENTS  IN THE
MANUAL

Eight HMOS (six percent) report that staff responsible for processing appeals and
grievances do not have the HMO/CMP Manual. This is problematic considering that
the Manual serves as a major guidance directive for HMOS in preparing local
guidelines and for training staff. Of these HMOS, three improperly categorized appeal
and grievance issues.

While most plans report     this Manual   is sufficient,   others report   areas that they believe
need improvement.

General      Guidelines

          Thirteen HMOS (10 percent) report that guidelines for appeal           and grievance
          issues in the HMO/CMP Manual are unclear and inadequate.               Of these HMOS,
          six improperly categorized appeal and grievance issues.

          HMOS also indicated the need for simplified definitions of appeals and
          grievances and examples of each. They stated that providing information            in
          “lay” terms on these processes would be helpful in explaining them to
          beneficiaries. HMOS indicated that appeal and grievance terminology
          established by HCFA for HMO materials is difficult for beneficiaries to
          understand.

Additional     Services

          Thirty-one HMOS (23 percent) reported that guidelines on “additional services”
          relating to appeal rights are inadequate and unclear. Of these HMOS,
          14 improperly categorized appeal and grievance issues.




     2 HCFA’S OMC has incorporated this issue in their “Managed Care Appeals & Grievance
Initiative,” a workgroup designed to improve these processes; General Accounting Office (GAO),
“Medicare: Federal Efforts to Enhance Patient Quality of Care (April 1996), 29; GAO, “Medicare:
Increased HMO Oversight Could Improve Quality and Access to Care” (August 1995), 10-11; Public
Citizen’s Health Research Group, “Serious problems for Older Americans In Health Maintenance
Organizations” (May 1995), 10; The Columbia Law Review 1994,’’Notes: Securing Access To Care in
Health Maintenance Organizations: Towards a Uniform Model of Grievance and Appeal Procedures”
(June 1994), 22.


                                                 9�
      An “additional service” is one that is covered under the HMO’s plan but is not

      covered under traditional fee-for-service Medicare.   For example, denial of

      payment or authorization   for a hearing aid that the beneficiary believes is

      needed, which is covered in the basic plan, is appealable.    However, optional

      supplemental  benefits elected by the beneficiary and paid for through

      additional premium payments are grievance issues.


      Most HMOS reported that this issue is confusing and unclear. Very little is

      included in the HMO/CMP Manual and the regulations on “additional services”

      and appeal rights. The plans indicated that clearer demarcation between what

      is appealable and grievable and examples of each would be helpful.


Emergency   and Urgent   Care

      Nine HMOS (seven percent) reported that the difference between emergency
      care and urgent care, as defined by HCFA guidelines, is problematic.

      HMOS believe that the definition of “urgent care” is very broad and requires
      the plans to cover an extremely wide range of out-of-area services. Several
      plans indicate that it would be helpful for both HMOS and beneficiaries if
      HCFA would provide working examples of each.

      Although emergency and urgent care are defined in both the regulations and
      the HMO/CMP Manual, emergency room services was the second highest
      appeals issue in cases sent to NDG in 1993 and 1994. In NDG’s 1994 data
      report, 595 (19 percent) of the appeals received involved emergency services
      disputes.  Of these cases, NDG upheld 68 percent and, on average, these cases
      involved out-of-pocket liability of $579. This could be a result of beneficiary
      confusion about the difference between emergency and urgent care.

      Our companion report “Medicare HMO Appeal and Grievance Processes:
      Beneficiaries’ Understanding”    also provides detailed information on beneficiary
      comprehension   of billing disputes involving emergency services. In our survey,
      only 20 percent of the disenrollees and 59 percent of enrollees knew they could
      appeal their HMO’s refusal to pay a doctor or hospital for emergency care for
      which they were billed.




                                           10

                     RECOMMENDATIONS


HCFA’S Office of Managed Care is making substantial efforts to improve the HMO
appeal and grievance processes.       It has recently created a work group - Managed Care
Appeals and Grievance Initiative - organized to make program improvements          in these
functions.    Currently, they are also working with HMOS to develop national guidelines
for marketing materials, improve informational publications, research data reporting
needs, and have obtained funds to evaluate problems in the area of appeals and
grievances.    While HCFAS efforts should favorably impact these processes, we believe
there is still room for improvement.

    recommend    that HCFA

    ensure that HMOS cowect~ distinguishand process appah                and gn”evances.

    HCFA can accomplish this during their annual visits to HMOS.     However, we
    suggest that HCFA conduct case reviews as well as examine the operating
    procedures to determine that appeals and grievances are processed correctly.

    work with HMOS to estabbh standardized appeal and gn”evance language
    requiiemenfi in marketinglenrollrnent materials and operating procedures.

       - In marketing materials, provide up front information to beneficiaries               on their
         rights under the appeal and grievance processes and

       - In enrollment materials, more thoroughly educate beneficiaries about their
         specific rights under the appeal and grievance processes, including

              --a detailed overview of the types of services, lack of services, or
                situations which may be appealed or grieved.

              --when and under what circumstances            further   levels of appeal   are
                permitted.

              --clarification   that only appeals     and not grievances,    are subject to
                independent      Federal review.

              --the difference between the definitions of emergency             and urgent      care at
                the time medical sewices are being sought.

    require HMOS to report Medicare contract specijticcikta on appeal and gn”evance
    cases. At a minimum, include:

       - number of appeal and grievance cases (including formal and informal
         grievances);
       - number of cases resolved internally and externally, and outcomes of cases;
       - issues involved in cases; and
       - time it takes to resolve the cases (upper and lower limits, median/mean).



                                                11

                         AGENCY COMMENTS


We solicited and received comments on our draft report from HCFA. The complete
text of their response is included as an appendix to this report. A summary of their
comments and our response follows.

The HCFA agreed with the conclusion of our reports that improvements          are needed
and indicated that they are working to implement a number of our recommendations.
We are pleased that HCFA agrees that improvements          are needed in the appeal and
grievance processes, and we recognize that changes are in the process of being made
through the Medicare Appeals and Grievance Initiative (MAGI).          However, because
HCFA’S response does not specifically address the recommendations        contained in our
reports, we are unsure whether the problems identified in our report will be fully
addressed through this initiative. As a result, it will be important for HCFA to include
in their response to the final report an action plan that specifically addresses each
recommendation.

Although HCFA acknowledges the case review report identifies mistakes made by
health plans, they expressed concerns about the sample sizes and number of cases
reviewed.   We agree that this sample could not be used to make national projections
of the incidence of mistakes. However, the number of cases reviewed and outcomes
of the reviews are more than adequate to indicate the existence of significant problems
in HMO processing of appeals and grievances.

Finally, HCFA raised questions about the knowledge and expertise of the individuals
who prepared the HMOS’ responses to our survey documents.       We requested and
must assume that knowledgeable     HMO staff completed our survey. We also note that
beneficiaries making inquiries regarding appeals and grievances are likely to be
interacting with these same individuals or their staff.




                                            12

                                   APPENDIX               A


                          HMO SURVEY - Report on Process Operations
            MOST COMMON GRIEVABLE ISSUES REPORTED BY ~os




Waiting     time for services                                                   19


Phvsician    demeanor                                                            8


Dissatisfaction    with services or provider   services                          7




Physician    preference    in medical office                                     1




Podiatry    disputes                                                             1




Total Responses                                                                 137
1 HMOS responded with multiple issues resulting in 137 total.
2 HMOS reported the most common issues received and resolved through the grievance
  process actually were appealable issues. These HMOS are incorrect in processing these
  issues as grievances.




                                                  A-1

           MOST COMMON APPEALABLE                  ISSUES REPORTED     BY HMOS

                                                                           Number of I-IJUO




Total Responses                                                                   137
1 HMOS responded with multiple issues resulting in 137 responses.
2 The HMO reported the most common issue received and resolved through the appeal
  process actually was a grievable issue. This HMO is incorrect in processing the issue as an
  appeal.




                                            A-2

                                   APPENDIX                    B


     PROCEDURAL AND MARKETING/ENROLLMENT INFORMATION

                                  REPORTED BY THE Hh’@
                                                                                Marketing/
                                                            Procedures          Enrollment?

                    Area   inError                                       Ddinition




HMO does not mention money amounts for appeals steps

or has incorrect amounts.                                       11
                  8




HMO will not give a reconsideration determination unless

case is $100 or more.                                            1
                  1




                                                     B-1
                                                                                            Marketing/
                                                                  Proeedur62                Enrolhned
                     Area in Error                                               Processing




                     Area in Error                                           Time Requirements


HMO does not mention they will make the initial

determination within 60 daw of receipt of request.                      15                         9





1 Total number of errors is beyond 132 HMOS - many HMOS had multiple errors in the materials.

2 Sixty-nine percent or 91 HMOS had either incorrect or incomplete information in their operating procedures for

  processing appeals and grievances.

3 Sixty-six percent or 87 HMOS had either incorrect or incomplete information in their marketing/enrollment

  materials for processing appeals and grievances.

4 HMOS were asked to provide the HMO procedures for processing appeals, not all steps in the appeal process.





                                                     B-2

   APPENDIX                C




Health Care Financing Administration
        Response to Report




               c-1
cc
  *-E
        %




4
               DEPARTMENT     OF HEALTH& HUMAN SERVICES                           Haalth Care Financing Administratbn


‘%
  %“=                                                                             The Admlnlstrator
                                                                                  waahlmton, O,G 20201

                                                   DEC121996

            DATE:

            To:          June Gibbs Brown
                         Inspector General

            FROM         Bruce C. Vladeck
                         Administrator

            suB&’m       Office of Inspector General (OIG) Draft Reports: “MedicareHMO Appeal
                         and Grievance Processes-Ovcfiew~ (OE1-07-9440280); ‘Medicare
                         HMO Appeal and Grievance Processes--Benefidaries’ Undemanding,”
                         (0131-07-94-00281);“Medicare J3M0 Appeal and Grie~ce Processes--
                         Sumey of l-UviOs,”(OEI-07-94-00282); %fedicare IIM~ Appeal and
                         Grievance Processes-Review of Cases,” (OEI-07-94-00283)

            we reviewed the above-referenced reports that examine the opera.tkjnsof the Mcdkxtre
            risk-based HMOSappeal snd grievance prooesses. We agree with the conclusion of your
            report that improvements are needed and are working to implement a number of your
            recommendations. Our detailed wmments are attached,

            Thank you for the opportunity to review and comment on this report,

            Attachment
                Health Care FinancingAdministration (HCI?A) Comments
                        on Office of InsuectorGemeral (OIG}
    Draft Reuorts:“MedicareHealthMaintenance~lZ-tiOIE’      (EM 0) Atmeal and
Grievance Processes “overview.” (OEI-07-94-00280): Medicare HM O Appeal and
Grievance Processes:” Beneficiaries’ Understan&n~”     (OEI-07-94-0028 11: “Medicare
     HMO At.meal .aml Grievance Processes: “Survev of HMOs,” (OEL07-94-00282);
         “Medicare HMO APPeaI and Grl“evance ProGesses; “Review of Cases,”
                                    [0331-07-94-00283]



OIG Recommendations

OIG recommends that HCFA take the follotig      actionsto aikhess problems highlighted
in the above studies:

o      Actively monitor HMOSto ensure beneficiaries arc issued written determinations,

o	     Work with HMOSto establish standmb ‘ ed appeal and g&wan* language
       requirements in marketingkmrollrnent materials and operating procedures,

o      Ensure that HMOScorrectly distinguish and process appeak and grievances.

o	     Require HMOSto report Medicare contract-specific data on appeal and &evsnce
       cases,

o      Mod.@ the HMO/CMPManualto Glai&           and speci& key requirements,

o      Broaden effortsto formally trah IIMOS on the appeiil and grievance proGesses.

HCFA Rewonse

We agree that improvements am needecl We have a comprehensive effort underway
called the Medicare Appeals and Griewuwe Initiative (MAGI) whiGhincludes a number
of objectives that are direetly related to the recommendations in your reports. Our
objectives include identifjdng and meeting the information needs of beneficiaries
regarding their appeal rights; promoting hmlfi plan accountability by developing and
imprutig information on appeals and making rnemingful information mop available;
and refining mechanisms for monitorkg and assistingin the continuousimprovement of
health plan performance.
Page 2

OIG and HCFA jointly issued a Medicare benefi&uy advisory bulleti entit.l@ ‘What
Medicare Beneficiaries Need to Know About HMO Arrangements: K.nowYour R@hts.”
This easy-to-read docuumt contairq informationon appeal@#@ filing CWWMMS, and
rights to erneqymcyand urgently neededserviea. Copies of this bulletin are being
distributed nationally. Additionally, significant changes were made to improve the
managedcm portions of the MtxlkareHandbook w~* ww $entto @ W@WU@ MS
year. New data reportingrequirements on pIan-level reconsiderations are”undex
development andmay be institutedas early as rnid-1997. We also pkn to restructureand
shorten the time lines for handlinghealthewe decisions and reeansiderations by,health
plans.

Beneficiaries’   Understanding

,We are pleased to see the hi~ level of knowledge among Medieareknrolkes&irding
 their right to appeal and file complaints, This is an improvement over w earlier finding,
 and onewebelieveresults horn bothFederalprogramandpkm @@ts%t educating
beneficiaries and providingnotices,Withregard@thefintig thatbwwfkiwkstid a
lesser level of awareness as to when to exercise their appeal rights, forthcoming
regulations cku-iijdngthe right to appeal when servicek are reduced or tcrninate~ and
when to provide notices of noncove~ageat these points in care managemen~ should
significantly help address “&isproblem, We wiU consider the recommendations in this
area.

Survev EIMOS

Incorrect categorization of appeals as grievances is an area for improvement identiled in
our MAGI initiative. However, we question the percentage and methodology set forth i-u
this report. BecausecertainstafEwithinthe organizational     structureof anHMO,or staff
at delegated medical groups within the HMO’s nemor~ are generally responsible for
assigning complaintstu theappeakorgrkvanGctiaGf$it wouIdbe importanttohow
who respondedto thetwo questions asked On this subject ancl what role they play in this
particular process, Wewillbemovingto icknti&the some problems)surhw s!..S5
turnoveraid coml!hsion
                    overdifferencesin Federalandstateterminology.
The @e of statistical tiorrnation sought by OIG staff has not been a requirement for
Medicare-contracting health plans. Therefore, it is not surprising that many plans
aggregate the appeals information across ~,~erci~      MedicWe,andMedicaid~embers.
New plan-leveI appeals r~port.ingrequirements should resolve the need for Medicare-only
information, and respond to your recommendation.
Page 3

Row“CwOfc.ases

We have concerns aboutthe smallsamplesizes andmmiberof cases usedto present
tidings in this reporb However,the reportid-es the Iypes of mistakes healthplans
make in operating  an appeals syst~ and the needs that plans have for clear, disti.net
inf’tion     and tmining about the Medieam managed cam requirements (and how these
Mm from state requirements for their oommereial and Medioaid enrollees), We will
consider the nxxxnrnendations presented.
